                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




AUDIT OF
FIRE AND EMERGENCY MEDICAL SERVICES
COST SHARING BETWEEN THE DEPARTMENT OF ENERGY
AND LOS ALAMOS COUNTY




The Office of Inspector General wants to make the distribution of its reports
as customer friendly and cost effective as possible. Therefore, this report
will be available electronically through the Internet five to seven days
after publication at the following alternative addresses:



             Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

   U.S. Department of Energy Human Resources and Administration
                            Home Page
http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the Customer
Response Form attached to the report.




Report Number: WR-B-96-01             Western Regional Audit Office
Date of Issue: October 2, 1995        Albuquerque, New Mexico 87185

AUDIT OF FIRE AND EMERGENCY MEDICAL SERVICES
COST SHARING BETWEEN THE DEPARTMENT OF ENERGY
AND LOS ALAMOS COUNTY




TABLE OF CONTENTS


                                                             Page
            SUMMARY.........................................    1

PART I    - APPROACH AND OVERVIEW...........................    2

            Introduction....................................    2

            Scope and Methodology...........................    2

            Background......................................    3

            Observations and Conclusions....................    4

PART II   - FINDING AND RECOMMENDATIONS.....................    6

            Cost Sharing of Fire and Emergency Medical
            Services Between the Department and Los Alamos
            County..........................................    6

PART III - MANAGEMENT AND AUDITOR COMMENTS.................    11
U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
OFFICE OF AUDIT SERVICES
WESTERN REGIONAL AUDIT OFFICE

 AUDIT OF FIRE AND EMERGENCY MEDICAL SERVICES
COST SHARING BETWEEN THE DEPARTMENT OF ENERGY
AND LOS ALAMOS COUNTY

Audit Report Number:    WR-B-96-01              October 2, 1995

SUMMARY

     The Department of Energy (Department) provides fire and emergency
medical services to Los Alamos County (county) under the Atomic Energy Act of
1954. Since the county's inception, the Department and the county have been
working toward making the county self-sufficient. To help achieve this goal,
the Department negotiated a contract transferring responsibility for fire and
emergency medical services to the county and allocating the expected $39.9
million in costs between the parties. The purpose of the audit was to
determine if the costs for fire and emergency medical services were shared
appropriately commensurate with the use of the services.

        We found that the Department was paying about 99 percent of costs
($39.4 million) while using about 47 percent of the services. We also noted
that the formula used to arrive at the cost allocation was neither justified
as reasonable nor appropriately documented. In fact, data needed to
reconstruct the formula and fully understand it was not available. As a
result, the Department and the county cannot be assured that costs are
allocated fairly and that neither party is unnecessarily subsidizing the
other. We recommended that the Department either develop alternative methods
for sharing fire and emergency medical services costs or separate
responsibility for these services between the Department and the county.
Management agreed.




PART I

APPROACH AND OVERVIEW

INTRODUCTION

     Los Alamos County was created in 1964 as a response to a Congressional
mandate, promulgated in the Atomic Energy Act of 1954. Because the county
came into existence via the Atomic Energy Act, the Department provided fire
and emergency medical services. In the intervening years, however, the
Department and the county have worked toward making the county self-
sufficient. The contract for fire and emergency medical services represented
a step in the direction of self-sufficiency by requiring the county to begin
paying for its share of the related costs.

        The purpose of the audit was to determine if the costs for fire and
emergency medical services were shared appropriately commensurate with the
use of the services.

SCOPE AND METHODOLOGY

        The audit was conducted at Los Alamos from November 1994 through March
1995.

        To accomplish the audit objective, we:

     o reviewed the prime contract between the Department and the
county relating to the terms and payments of the contract;

        o   reviewed laws and regulations and applicable Federal
            Acquisition Regulations concerning negotiation of          contracts;

        o
        interviewed Los Alamos Area Office and Albuquerque
        Operations Office personnel responsible for administering              the
contract between the Department and the county; and,

        o reviewed January through September FY 1994 usage records
for fire and emergency medical services.

     The audit was performed in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal
controls and compliance with laws and regulations to the extent necessary to
satisfy the audit objective. We did not rely on computer-generated data in
developing this audit because such data did not appear to reflect actual
occurrences and transactions. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have
existed at the time of the audit. An exit conference was held with the
Department of Energy at the Los Alamos Area Office on August 10, 1995.

BACKGROUND

     The five-year fire and emergency medical services contract between the
Department and the county took effect December 1, 1992, and was in its third
year at the time of our audit. Introductory contract language indicated that
the Department and the county shared the goal of making the county self-
sufficient. The contract itself was viewed as a vehicle toward that end, in
that it required the county to begin paying for services to the community.
Significant contract provisions regarding costs and cost-sharing included:

            o   Total estimated costs of $39.9 million over the five-year
period.

        o Sharing of costs based on a formula that was to use 1988
appraised property values.

        o A required county contribution, based on the formula, of
$594,000 annually. This contribution was to be phased in
incrementally beginning with 20 percent of the annual        amount
($118,800) in the third year, 40 percent ($237,600)        in year 4, and 60
percent ($356,400) in year 5. The full           annual contribution of
$594,000 would be reached in the          second year of a follow-on contract,
if the parties agreed          to such a contract. Further, the county's
contribution          would remain fixed at $594,000 unless "...modified at
the          request of one of the parties upon agreement that this
amount [was] no longer fair and reasonable."

        o Payment, by the Department to the county, of a management
allowance of $203,000 annually. As with the county         contribution, the
management allowance was to be phased in        at 20 percent increments
beginning in the third year of the        contract.




These provisions are illustrated in the following table.
   Contract Cost-Sharing

((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((
(         ( Estimated ( Los Alamos    ( Management (Net Estimated(
(         (   Costs    ( County Share ( Allowance    ( Cost to DOE (
(         (            (              (              (             (
( 1st year( $ 7,350,790(   $        0 (   $        0 ( $7,350,790 (
( 2nd year(   7,568,368(            0 (            0 (   7,586,368 (
( 3rd year(   7,895,868(      118,800 (       40,600 (   7,817,668 (
( 4th year(   8,299,374(      237,600 (       81,200 (   8,142,974 (
( 5th year(   8,738,687(      356,400 (      121,800 (   8,504,087 (
( ((((((( ( (((((((((( ( ((((((((((( ( ((((((((((( ( (((((((((( (
( Totals ( 39,853,087(        712,800 (      243,600 ( 39,383,887 (
((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((((

        As the table illustrates, the county will contribute $712,800, or
about 2 percent of total contract costs, over the 5-year period. After
receiving its management allowance of $243,600, the county's net contribution
will be $469,200, or about 1 percent of total costs. The Department will pay
the remaining $39.4 million, or 99 percent.

OBSERVATIONS AND CONCLUSIONS

     Department and county officials we spoke to believed that the fire and
emergency medical services contract was, in fact, a good start in moving the
county toward self-sufficiency. They also noted that the quality of services
had been excellent.

        Some of these officials also concluded, however, that the contract did
not appear to allocate costs fairly or on a reasonable basis. Our audit
confirmed this conclusion. We found that the Department was paying about 99
percent of costs while using about 47 percent of the services. More
importantly, we also noted that the formula used to arrive at the cost
allocation was neither justified as reasonable nor appropriately documented.
In fact, data needed to reconstruct the formula and fully understand it was
not available. As a result, the Department and the county cannot be assured
that costs are allocated fairly and that neither party is unnecessarily
subsidizing the other. Therefore, we recommended that the Department either
develop alternative methods for sharing fire and emergency medical services
costs with Los Alamos County, or develop a process which would separate
responsibility for fire and emergency medical services between the Department
and Los Alamos County.

        Management responded positively to the audit by indicating that the
optimum solution to the recommendations was the separation of fire and
emergency medical services between the county and the Department. Under the
separation, the county and the Department would each own and operate separate
fire departments and ambulance services. Each party would, therefore, pay
100 percent of their respective costs of operations.

        In our opinion, the Department should consider its inability to
determine whether it is paying a fair price for fire and emergency medical
services at Los Alamos National Laboratory a material internal control
weakness when preparing the yearend assurance memorandum on internal
controls.



PART II

FINDING AND RECOMMENDATIONS

Cost Sharing of Fire and Emergency Medical Services Between
The Department of Energy and Los Alamos County

FINDING

        The Code of Federal Regulations required the procurement of reasonably
priced goods and services. Similarly, the fire and emergency medical
services contract between the Department and Los Alamos County contained
language requiring that the costs of these services be shared fairly and
reasonably. In contrast, other contract terms required the Department to pay
up to 99 percent of the costs, a share that appeared unreasonably high given
that the Department used only about 47 percent of the services. This
apparent inequity occurred because contract costs were allocated based on an
undocumented formula that may have included questionable assumptions and
incomplete data. As a result, neither the Department nor the county could be
assured that costs were shared fairly and that neither party was subsidizing
the other unnecessarily.

RECOMMENDATIONS

     We recommend that the Manager, Albuquerque Operations Office, direct the
Contracting Officer to:

        1. Either develop alternative methods for sharing fire and
emergency medical services costs with Los Alamos County,          or develop
a process which separates responsibility for          these services between
the county and the Department.           Each alternative should be based on
a documented          rationale.

        2. Assure that any future contract negotiations with Los
Alamos County for these services are based on one or more            of the
alternatives developed.

     3.   Open a dialog with Los Alamos County aimed at exercising
          renegotiation provisions in the current contract.
MANAGEMENT REACTION

        Management agreed with the finding and agreed to implement the
recommendations. Detailed management and auditor comments are provided in
part III of this report.

DETAILS OF FINDING

     The Code of Federal Regulations (48 15.802 (b)(1)) required contracting
officers to procure goods and services at fair and reasonable prices.
Specifically, the CFR 48 15.803 (d) noted that the Contracting Officer's
primary concern should be the price the Government actually paid. In
addition, the contract between the Department and the county required that
the sharing of costs be fair and reasonable to both parties. Provisions in
the contract allowed for modification if one of the parties determined that
costs were not shared equitably.

USE AND COST OF SERVICES

        As one approach to determining whether the Department paid a
reasonable price for fire and emergency medical services, we reviewed
Department and county Fiscal Year 1994 usage records. In doing so, we sought
to determine whether the Department was paying a share of costs proportionate
to its use of the services. The analysis showed that from January to
September 1994, the Department placed 624 of 1,324 total service calls, or 47
percent; the county placed the remaining 700 calls, or 53 percent.
Laboratory officials told us that while Fiscal Year 1994 was the first year
for which usage breakout records were kept, they believed that the proportion
of services used by each party would remain relatively constant over the
remaining contract term.

     Department records showed that from December 1992 to October 1994
(roughly, the first two years of the contract), costs for the services
totaled approximately $14.6 million. Of this amount, approximately $400,000
(3 percent) was for services unique to the Department that would not be
incurred by a typical municipality. The remaining 97 percent of costs,
totalling about $14.2 million, covered services shared by both parties.

        Employing this usage and cost data, we developed an approach to
determining a fair cost allocation. We assumed that of the expected $39.9
million in total contract costs, 97 percent, or $38.7 million, would relate
to services shared by both parties. We then multiplied the county's $203,000
annual management allowance by the five year contract term and deducted that
amount ($203,000 X 5 = $1,015,000), leaving approximately $37.7 million to be
shared between the Department and the county. Finally, we assumed these
costs should be shared roughly equally, given the usage statistics to date.
Our calculations are illustrated below.


Approach to Cost Sharing

($ in millions)
        ((((((((((((((((((((((((((((((((((((((((((((((((((((((((
        (   Total Contract Costs                   39.9        (
        (                                                      (
        (   Less:                                              (
           (     Unique services (3 percent)   1.2                    (
           (     Management allowance          1.0         2.2        (
           (   Costs to be shared by both parties         37.7        (
(                                                        (
        (   Multiplied by County's share             .50       (
        (                                                      (          (
County portion of shared costs         18.8        (
        (                                          (((((       (
        (                                                      (
        (   "Reasonable" Department share          21.1        (
        (                                                      (
        ((((((((((((((((((((((((((((((((((((((((((((((((((((((((

        Using this approach, a reasonable Departmental share of costs would be
about $21.1 million, or 53 percent of the total amount. As noted, however,
the Department's actual costs under the contract will be about $39.4 million,
or 99 percent.

        Our approach may not have considered all factors necessary in
determining whether the Department is paying a fair price for services. It
illustrated, however, that sharing costs on the basis of a reasonable factor-
-in this case, use of services-- could yield an expected cost allocation
drastically different than the one contained in the contract. In the absence
of documentation justifying the Department's rationale, this disparity caused
us to question the contract's fairness.

CONTRACT PRICE DETERMINATION

        The contract's potential unfairness stems from its reliance on a cost-
sharing formula that did not appear reasonable and was not fully documented.
The formula, represented graphically below, purportedly multiplied the ratio
of 1988 appraised county and Laboratory property values by the price of the
previous fire and emergency medical services contract.

       County Property Value           Price of       Annual county
    ((((((((((((((((((((((((((((   X   previous   =   share of contract
    County + Lab Property Values       contract       costs

The price of the previous contract was about $5.7 million and the contract
stated that the answer produced by this formula was an annual county share of
$594,000. For several reasons, we were unable to determine--based on our
review of the contract file and interviews with Department, Laboratory, and
county officials--the validity of this formula. First, the number used for
the value of Laboratory property was not documented in the contract file and
was unknown to anyone we spoke to. In fact, Department, Laboratory, and
county officials all told us that a formal appraisal had never been done of
laboratory land and buildings. Second, the formula yields an answer
indicating that the county's property value was about 10 percent and the
Laboratory's value about 90 percent of the total ($594,000/$5.7 million).
Again, there was no documentation in the contract files or with any of the
parties that this was a reasonable estimate. Finally, there was no
explanation in the contract file as to the reasonableness of estimating the
county's share of costs based on the previous $5.7 million contract rather
than the current contract worth $39.9 million.

Concerns About Economic Burden
        Department officials were apparently concerned that requiring the
county to pay a greater share of costs would negatively affect its economy.
During the audit, we talked to several officials knowledgeable about the
contract negotiations, including Los Alamos Area Office's contracting officer
and legal counsel, and Albuquerque Operations Office's Deputy Manager. The
consensus view of these individuals was that, at the time of the
negotiations, the Department did not want to overburden the county. This
view seems to be confirmed not only by the level of the county's
contribution, but also by the fact that the contribution was not required
during the first two years, and phased in over the five years after that.

        We noted however, that relative to other counties in New Mexico, Los
Alamos appeared able to pay an equitable share of costs for these types of
services. The National Association of Counties, for example, indicated in
its 1994 County and City Extra: Annual Metro, City, and County Data Book
that Los Alamos County is ranked first among New Mexico counties in income
per capita. In addition, a representative from New Mexico's Department of
Finance stated that the county's effective tax rate (tax rate based on
property value) was comparable to those of other New Mexico counties.

POTENTIAL CONSEQUENCES

        Because the cost-sharing rationale and formula are not well
documented, neither the Department nor Los Alamos County can be assured that
the contract is fair and reasonable. Our analysis of usage statistics and
costs to date showed that the Department may be subsidizing county taxpayers
by up to $18.3 million, representing the difference between the $39.4 million
the Department will pay under the contract terms and our estimate of a $21.1
million "reasonable" share of costs. Such a subsidy may not be appropriate
given Los Alamos County's relative affluence. Conversely, the contract's
lack of a documented rationale also makes it impossible for Los Alamos County
to determine that its share of costs is fair. Although unlikely, in our
opinion, it is conceivable that the county is paying more than its fair share
and is, therefore, subsidizing the Department at the expense of county
taxpayers. Without the knowledge or documentation of what numbers were used
in the original formula, why those numbers were used, and whether they formed
a reasonable basis for cost allocation, the parties had no way to determine
whether they will pay a fair price for the services, as required by Federal
regulation.


PART III

MANAGEMENT AND AUDITOR COMMENTS

     The Manager, Albuquerque Operations Office concurred with the finding
and recommendations. Management's comments and our responses are included
below.

     Management Comments. Management concurred with recommendation 1 to
either develop alternative methods for sharing costs with the county or
develop a process which separates responsibility for the fire and emergency
medical services. Under the separation, the Department and the county would
each own and operate separate fire departments and ambulance services. Each
would also pay 100 percent of their respective costs of operation.
     In addition, management indicated that the Department and the county
could both achieve a cost savings over the current arrangement due to lower
staffing requirements, and reduced training costs. Management also indicated
that at the present time, fire suppression and emergency services personnel
must all be trained to a level high enough to allow an appropriate response
to potentially complex situations at Department facilities in Los Alamos.
The cost associated with this enhanced training and strict compliance could
be significantly reduced under the proposed separation. At the present time,
the contracting officer is pursuing two paralleled courses of action:

        1. To evaluate the overall costs of this contract with the
appropriate county officials in order to develop methods         of lowering
these costs.

        2. Preparing legislation to be introduced which would
transfer real property and capital equipment to the          county for
purposes of the separation, and planning to          enter into extremely
delicate sensitive negotiations          with county officials and Laboratory
management to set          the stage for the separation to occur. This
information          is considered to be extremely sensitive at this point in
time.

        Management's proposed target date to effect the separation is December
31, 1996.

       Auditor Comments.   Management's comments are responsive.

     Management Comments. With respect to recommendations 2 and 3, aimed at
future negotiations with the county, management agreed that if the separation
plan is not executed, the present cost-sharing formula needs to be
renegotiated.

       Auditor Comments.   Management's comments are responsive.



                                      IG Report No.   WR-B-96-01

  CUSTOMER RESPONSE FORM

The Office Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection    would have
been helpful to the reader in understanding this     report?

2. What additional information related to findings and     recommendations
could have been included in this report to    assist management in
implementing corrective actions?

3. What format, stylistic, or organizational changes might have      made
this reports overall message more clear to the reader?
4. What additional actions could the Office of Inspector General      have
taken on the issues discussed in this report which would    have been
helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name                                        Date

Telephone                                   Organization

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaugther at (202) 586-
1924.
 * * * *

continued footnote

footnote continues next page

20
